                                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                                 OFFICE OF INSPECTOR GENERAL

                                                       Washington D.C. 20250




DATE:                October 23, 2009

REPLY TO
ATTN OF:             11703-1-HQ

TO:                  Evan J. Segal
                     Chief Financial Officer
                     Office of the Chief Financial Officer

THROUGH: Kathy Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:                Robert W. Young
                     Assistant Inspector General /s/
                      for Audit

SUBJECT:             American Recovery and Reinvestment Act of 2009 Reporting Oversight

The American Recovery and Reinvestment Act of 2009 1 (Recovery Act) enacted in February
2009 states that the use of Recovery Act funds should be transparent: reported clearly, accurately,
and in a timely manner. The U.S. Department of Agriculture (USDA) received $28 billion in
Recovery Act funding in a number of program areas. The Office of Management and Budget
(OMB) issued OMB M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant
to the American Recovery and Reinvestment Act (Recovery Act) of 2009, dated June 22, 2009.
OMB M-09-21 provides Governmentwide guidance for carrying out the reporting requirements
included in Section 1512 of the Recovery Act.

This audit focused on the internal controls and policies and procedures for implementing recipient
reporting requirements specified in OMB M-09-21 that are the responsibility of USDA when
dispersing Recovery Act funds. OMB’s M-09-21 Recovery Act recipient reporting guidance
called for agencies receiving Recovery Act funds to implement a limited data review process to
identify material omissions and/or significant errors 2 and notify the recipients of the need to
make complete, accurate, and timely adjustments. Our objective was to determine whether
USDA had established a process, including USDA agency responsibilities, for performing limited
data quality reviews.

We found that USDA has provided significant information and assistance to its agencies but has
not established an internal control structure with formal policies and procedures that provide a
clear indication of departmental versus agency responsibility for determining the completeness
1
  American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat. 115.
2
  Material omissions are instances where required data are not reported or reported information is not otherwise responsive to the
data requests, resulting in significant risk that the public is not fully informed as to the status of a Recovery Act project or activity.
Significant errors are instances where required data are not reported accurately and such erroneous reporting results in significant
risk that the public will be misled or confused by the recipient report in question.
Evan J. Segal                                                                                    2

and validity of recipient reporting. We recommended that USDA establish an internal control
structure with formal policies and procedures that provide a clear indication of departmental
versus agency responsibility for determining the completeness and validity of recipient reporting
in order to identify material omissions and/or significant errors.

Background

USDA received $28 billion in funding under the Recovery Act in a number of program areas,
including farm loans, watershed programs, supplemental nutrition assistance, wildland fire
management, construction projects, rural housing, rural business, water and waste disposal, and
broadband. The Recovery Act also provided the Office of Inspector General (OIG) with $22.5
million, which remains available until September 30, 2013, for “oversight and audit of programs,
grants, and activities funded by this Act and administered by USDA.” OIG began working
immediately with USDA, the Inspector General community, the Government Accountability
Office, and the Recovery Accountability and Transparency Board, to conduct our oversight
responsibilities. For our audit oversight, we initiated 31 projects to review the development of
USDA agency program guidance, internal controls, eligibility criteria, and USDA compliance
activities related to Recovery Act requirements. This audit focused on internal controls and
policies and procedures for implementing recipient reporting requirements specified in OMB
M-09-21 that are the responsibility of USDA when dispersing Recovery Act funds. We anticipate
future phases to focus on the validity and completeness of the reported data.

The term ‘‘recipient’’ includes entities, such as States, that receive Recovery Act funds through a
grant, loan, or contract. Recipients of Recovery Act funds are required to submit quarterly reports
beginning in October 2009. Primary recipients are non-Federal entities that receive Recovery Act
funding as Federal awards in the form of grants, loans, or cooperative agreements directly from
the Federal Government. A sub-recipient is a non-Federal entity that expends Recovery Act
funds received from another entity to carry out a Federal program but does not include an
individual who is the beneficiary of the program. Prime recipients may choose to delegate
reporting requirements to sub-recipients. Federal agencies are not considered prime or sub-
recipients.

The information reported by all prime recipients (and those sub-recipients to which the prime
recipient has delegated reporting responsibility) will be submitted through
http://www.federalreporting.gov/. This web portal is the Governmentwide data collection system
that will be used to collect all Recovery Act recipient reports. Once data has been submitted to
FederalReporting.gov and reviewed by USDA, the information will be available to the public via
www.Recovery.gov. Recovery.gov is a web portal through which recipient reporting will be
made available to the public.

We audited USDA’s implementation of OMB M-09-21 to determine whether the information
submitted by recipients would be complete, accurate, and timely. As the owner of the
Department’s financial management systems, the Office of the Chief Financial Officer (OCFO)
has taken the lead in implementing USDA-wide Recovery Act recipient reporting guidance.
Evan J. Segal                                                                                         3

Scope and Methodology

We interviewed responsible USDA personnel, attended meetings, and reviewed applicable
documentation. We conducted the audit from August 2009 through October 2009 in accordance
with generally accepted Government Auditing Standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

Objective

With respect to OMB’s M-09-21 Recovery Act recipient reporting guidance, USDA was to
implement a limited data review process to identify material omissions and/or significant errors
and notify the recipients of the need to make complete, accurate, and timely adjustments. Our
objective was to determine whether USDA had established a process, including USDA agency
responsibilities, for performing limited data quality reviews.

Findings and Recommendations

USDA/OCFO has not established an internal control structure with formal policies and
procedures that provides a clear indication of departmental versus agency responsibility for
determining the completeness and validity of recipient reporting. OCFO has recognized the need
to implement a formal USDA control structure and is drafting guidance that it has shared with
OIG. However, because of other OMB reporting requirements and/or priorities, OCFO has not
had the opportunity to officially implement the guidance. We believe that, once implemented,
USDA’s guidance will clearly define the limited data quality reviews the Department will
perform, as well as additional data quality reviews that the agencies will be required to perform.

With the current absence of official departmental guidance, some USDA agencies have
implemented agency-specific guidance for assessing the quality of recipient reporting. As a
result, there is a risk of inconsistencies between each agencies’ data quality reviews that could
impact OCFO’s ability to assess the validity and completeness of USDA’s aggregated
information.

OMB Circular A-123, Management’s Responsibility for Internal Control, requires that
management be responsible for establishing and maintaining internal control to achieve the
objectives of effective and efficient operations, reliable financial reporting, and compliance with
applicable laws and regulations.

We reviewed the policies and procedures OCFO is in the process of drafting. When
implemented, USDA will be compliant with the limited data review requirements for information
provided by the recipients of Recovery Act funding. It will include “action limits” (e.g., percent
of expended funds verses estimated project completion, expenditures that exceed amounts
obligated to the project, data anomalies, etc.). It will also include analyses of potential data
omissions and/or errors and procedures for requiring recipient adjustments. Guidance will also be
provided to agencies for performing additional data quality reviews of their programs.
It is important to recognize that USDA/OCFO has provided significant information and assistance
to its agencies. For example, biweekly meetings are conducted to discuss emerging issues.
Participation is extensive and the agencies’ buy-in to the importance of the success of the
Recovery Act is evident. USDA/OCFO implemented a web page using Microsoft’s “SharePoint”
software to disseminate data and guidance to appropriate USDA users of Recovery Act
information. SharePoint contains useful information on data quality reviews, guidance on
communications with lobbyists, reporting requirements for Recovery Act contracts, OMB
reporting requirements, etc. It also has important links to other USDA and Governmentwide
Recovery Act web pages. In addition, various webinars have been sponsored to provide guidance
and training.

We recommend the OCFO establish an internal control structure with formal policies and
procedures that provide a clear indication of departmental verses agency responsibility for
determining the completeness and validity of recipient reporting in order to identify material
omissions and/or significant errors.

OCFO Response

OCFO’s full response is attached. OCFO concurred with OIG’s findings and recommendation.
Final USDA guidance will be issued by memorandum from the Chief Financial Officer by
October 30, 2009. The guidance, which will be posted on USDA’s Recovery Act Web site,
provides agencies that award Recovery Act funds with guidelines for assessing data quality in
accordance with OMB M-09-21. The USDA guidance will ensure that material omissions and
significant errors are minimized. OCFO will ensure agency and Departmental management
reviews are performed as required by OMB M-09-21. OCFO will also monitor the reporting
requirements and test the limited review process annually under OMB Circular A-123,
Management’s Responsibility for Internal Control, Appendix A, Internal Control Over Financial
Reporting.

OIG Position

We concur with the management decision. To achieve final action, OCFO should follow its
internal procedures for achieving final action and provide evidence that the guidance has been
posted on the USDA Recovery Act Web site




                                 An Equal Opportunity Provider and Employer
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                    Office of the Chief Financial Officer
                                     1400 Independence Avenue, SW
                                         Washington, D.C. 20250

 
        
                                                                               October 16, 2009

TO:            Robert W. Young
               Assistant Inspector General for Audit
               Office of Inspector General

FROM:          Evan J. Segal         - Signed -
               Chief Financial Officer

SUBJECT:       Audit Report No: 1173-1-HQ, American Recovery and Reinvestment Act of 2009
               Reporting Oversight
 
 
Thank you for the opportunity to address your comments on improvements needed for the
reporting oversight under the American Recovery and Reinvestment Recovery Act (Recovery
Act) of 2009.

The Office of the Chief Financial Officer (OCFO) issued Data Quality Review procedures via
electronic mail, September 30, 2009. These procedures identify Departmental and agency
responsibility for determining the completeness and validity of recipient reporting. The guidance
is being updated to address the findings and recommendations made by Office of Inspector
General (OIG). Agencies will have an opportunity to review and comment on the guidance
before the Chief Financial Officer (CFO) sends a memorandum to agency heads with the final
Data Quality Review Guidance.

While some United States Department of Agriculture (USDA) agencies may have implemented
agency-specific guidance for assessing the quality of recipient reporting, we do not believe there
will be a risk of inconsistencies between each agency’s data quality reviews. Section 5.3 of the
revised guidance will outline internal controls OCFO has established to monitor any agency-
specific data quality review processes.

USDA is compliant with the limited data review requirements for information provided by
Recovery Act funding recipients. Our current procedures provide thresholds as described in
Section 5.4 of the guidance. We have also identified methods to analyze material omissions
and/or significant errors and the procedures for requesting recipient adjustments. The guidance
also includes requirements for agencies to perform additional data quality reviews of their
programs throughout Section 5.




                                An Equal Opportunity Provider and Employer
 
  


    
The following addresses the specific recommendation in the audit letter:

Recommendation 1:

We recommend OCFO establish an internal control structure with formal policies and
procedures. These policies and procedures should clearly indicate Departmental-verses-agency
responsibility for determining the completeness and validity of recipient reporting. This
clarification will help identify material omissions and/or significant errors.

OCFO Response:

OCFO concurs with OIG’s findings and recommendations. Final USDA guidance will be issued
by memorandum from the CFO by October 30, 2009. The guidance, which will be posted on the
USDA Recovery Act Web site, provides agencies that award Recovery Act funds with guidelines
for assessing data quality in accordance with OMB M-09-21, “Implementing Guidance for the
Reports on Use of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
dated June 22, 2009. The USDA guidance will ensure that material omissions and significant
errors are minimized. OCFO will also ensure agencies and Departmental management reviews
are performed as required by OMB M-09-21. We will also monitor the reporting requirements
and test the limited review process annually under Office of Management and Budget Circular
A-123, Management’s Responsibility for Internal Control, Appendix A, Internal Control Over
Financial Reporting.

If you have any questions or need additional information, please contact me at (202) 720-5539 or
have a member of your staff contact Kathy Donaldson at (202) 720-1893.
 
